                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: Allll0077                                                                        Page 1 of 1



                 As part of a proactive review for plagiarism in awarded proposals receiving funds under
         America Recovery and Reinvestment Act (ARRA), we identified an awarded CAREER proposal 1
         from a PI2 at a university. 3 As part of our inquiry we identified a second proposal4 from the same PI
         with questionable text. Our inquiry determined there was sufficient evidence to warrant an
         investigation. We referred the matter to the university. The university completed its investigation,
         finding that PI committed careless plagiarism in the CAREER proposal and did not commit
         plagiarism in the second proposal. Thus, the university made no finding of research misconduct.

                 We disagreed with the university in its assessment of intent with respect to the CAREER
         proposal. We prepared our report (attached) for NSF with recommendations for a fmding of reckless
         plagiarism and protective actions consistent with such a finding.

                 NSF found that the PI's actions constituted plagiarism and were a significant departure from
         the accepted practices ofthe relevant research community (attached). However, NSF agreed with the
         university that those actions were careless and did not warrant a finding of research misconduct.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11102)
SENSITIVE                                    SENSITIVE




      National Science Foundation
        Office of Inspector General




             Report of Investigation
            Case Number A-11110077
                January 30, 2013
                                                              :       !




                                   NSF OIG Form 22b (12/10)
                                                                  :       i
SENSITIVE                                                                            SENSITIVE


                                    Executive Summary

Allegation:         Plagiarism in an NSF award.

Inquiry:            We identified an awarded CAREER proposal and a declined proposal that
                    contained material apparently copied from numerous sources and
                    contacted the PI (the Subject). The Subject's response did not fully
                    explain the copying. We referred an investigation to the University.
                                                                         \


University          The University completed an investigation, and concluded that the Subject
Investigation and   carelessly plagiarized in the awarded proposal. But it found that the
Action:             Subject's postdoc was the original author of the questioned text in the
                    declined proposal. Although the University made no research misconduct
                    fmding, it required the Subject to complete training, to provide
                    certifications, and to have a mentor.

OIG's               •    The Act: Plagiarism of 68 lines with 12 embedded citations from 12
Assessment:              sources in an ARRA-funded CAREER Award.
                    •    Significant Departure: The plagiarism was a significant departure
                         from accepted practices.
                    •    Intent: The Subject acted recklessly.
                    •    Standard of Proof: The preponderance of the evidence supports a
                         finding of research misconduct.

OIG                  •   A finding of research misconduct.
Recommendation:      •   Require the Subject to certify his completion of a responsible conduct
                         of research training program and provide documentation of the
                         program's content within 1 year of NSF's finding.
                     •   Bar the Subject from participating as a peer reviewer, advisor, or
                         consultant for NSF for 1 year.
                     •   Require the Subject to submit a contemporaneous certification to the
                         AlGI that each document submitted does not contain plagiarism,
                         falsification, or fabrication for 1 year.




                                                                                                  1
SENSITIVE                                                                                          SENSITIVE


                                               OIG's Inquiry

        We identified apparently copied text in an awarded CAREER proposal (the Award) 1 as
part of a review of awards funded under the American Recovery and Reinvestment Act (ARRA).
The Subjecf is the sole PI on the Award. We reviewed a sample ofhis other proposals to NSF
and identified a second proposal (the Proposali also containing apparently copied text.

        We contacted the Subject4 and asked for his explanation for the text, embedded citations,
and figures we identified as copied from Sources A through P. 5 Although the Subject correctly
noted that 4 out of 16 source documents bore publication dates that followed the submission
dates on each proposal, his explanations did not fully dispel the allegation. 6 Four of the sources
have publication dates after submission of the proposal containing the copied material. Two of
these sources (Sources A and I) were papers by faculty members and colleagues in his
department at the University7 and two by his proposed postdoctoral associate (the Postdoc) 8
(Sources M and N). According to the Subject, his departmental colleagues or collaborators were
authors on a total of seven of the source documents (Sources A, F, G, H, I, J, and L), indicating
that Subject had direct access to prepublication versions of the sources. We found that the
Subject had been the CoPI on other NSF proposals with some of these colleagues also listed as
CoPis. However, we did not find any of the copied text from the Award or the Proposal in these
joint submissions to NSF. Thus, the copied text was not previously shared or coauthored
material.

        Furthermore the Subject stated:

                 I did not use quotation marks simply because I strongly believed
                 that it was legal and appropriate to just add a reference to the
                 original source after each statement based on the NSF definition of
                 plagiarism (see below). Thus', I believe this case has nothing to do
                 with plagiarism but rather style of citation. [91

       We found sufficient substance to warrant an investigation and referred the allegations to
the University. 10




      19,      Jnqwry Letter to
5
  Tabs 3 -IS; Sources A throughP.
6
  Tab 20, the                   to OIG's Inquiry Letter.
7



9
                                 report we                          page numbers, which are appear in the lower
right corner of the document preceded by the case number. The page numbering is sequential from Tab 1 through
Tab29.
10
   Tab 21, OIG Investigation Referral Letter.


                                                                                                              2
SENSITNE                                                                                             SENSITNE




                                    The University's Investigation11

        The University appointed an ad hoc investigation committee (IC) under its research
misconduct policy. 12 The IC reviewed the annotated Award, Proposal, source documents, and
the Subject's response to our inquiry letter. It also interviewed the Subject13 and reviewed two
of his publications for plagiarism. 14

        The IC found:

                 [N]umerous items of plagiarism occurred in [the Award]. These
                 were all of the same type, and were due to haste, and lack of
                 knowledge of proper citation form. We fmd no evidence of
                 recklessness or intent to deceive. Therefore, the plagiarism was
                 due to carelessness, and does not constitute research
                 misconduct. ...

                 With regard to [the Proposal] ... no plagiarism occurred.
                 Testimony indicates that a substantial part of the proposal was
                 written by another scientist, who then reused parts of the proposal
                 verbatim in his own later papers. These facts do not constitute
                 plagiarism, certainly not by [the Subject]. The committee is of the
                 opinion that treatment of the other scientist as co-PI would not be
                 usual in this field, and accordinBly failure to do so does not
                 constitute research misconduct. 151

         In making its determination that the Subject acted carelessly with respect to the Award,
the IC considered: 1) the Subject's "undue haste" evidenced by "the pattern of 'copy and paste'";
2) the absence of "clear guidance on standards of quotations" and citation in his doctoral training
in Europe; and 3) his stated belief that lower standards of attribution applied to proposals relative
to publications. 16 The IC noted that preparing a proposal in haste was "inconsistent with
accepted standards of professionalism. 1 The IC stated its belief "that it was careless on his             part
to fail to consult readily-available manuals on professional writing and on NSF standards." 1

       For the Proposal, the IC concluded that the Postdoc's role "did not constitute co-PI"
designation, and it "would not have been appropriate to so identify him in the proposal." 19 The

11
   Tab 22, The University's Investigation Report and Appendixes.
12
   Tab 24, University Administrative Procedures for Research Misconduct
13
   The University procedure states that the IC shall interview the Complainant (Tab 24 at 539). In this matter, we
(NSF OIG) were the complainant We permitted the IC to ask questions about NSF policy and procedure but we did
not address or interpret the evidence in this case (See Transcript, Tab 22 at 400 - 412).
14
   Tab 22 at 435- 513.
15
   Tab 22 at 345.
16
   Tab 22 at 346.
17
   Tab 22 at 346.
18
   Tab 22 at 346.
19
   Tab 22 at 346.


                                                                                                                  3
SENSITIVE                                                                                   SENSITIVE


IC noted that the purpose of the Proposal was to execute the Postdoc's original research idea, and
                                                                                  20
it "was logical for him to contribute heavily" to the preparation of the Proposal. The IC also
noted the inclusion of the Postdoc' s biographical sketch and the budget justification allocating
the majority of the funding to the Postdoc's activities. 21 The IC, however, did not address
alternative means of identifying the Postdoc as an author of the Proposal as directed in the NSF
Grant Proposal Guide (GPG)?2

        Although the IC did not make a finding of research misconduct, the IC recommended
three actions with respect to the Subject.

               •    The Subject should attend "appropriate sessions" of the graduate level responsible
                    conduct of research course, "particularly those dealing with plagiarism and
                                23
                    citation. "
               •    The Subject should "work with his department chair to develop a program for
                    faculty and students that addresses" the responsible conduct of research, including
                                   4
                    plagiarism?
               •    The Subject should provide certifications for 2 years to his department chair that
                    all proposals and reports submitted to NSF do not contain plagiarism.25

                   The Subject's Comments on the University Investigation Report 26

        The Subject received a copy of the university draft report and offered comments to
correct an inconsistency. He also 'asked questions regarding the definition of plagiarism with
respect to "copy and pasting followed by citation"27 and the standards of scholarship for
proposals relative to publications?8
                                   The University's Actions 29

        The Deciding Official30 (DO) concurred with the IC that the Subject's actions were not
research misconduct and imposed the remedial actions recommended by the IC. 31 The DO
expanded the certification requirement to include proposals and reports submitted to all funding
agencies. 32 Although the University did not make a finding of research misconduct, the actions
it implemented, including certifications, are similar to actions taken by universities that have
made a finding of research misconduct under a similar set of facts.



20
   Tab 22 at 346.
21
   Tab 22 at 346.
22
   GPG Section I.D.3.
23
   Tab 22 at 346.
24
   Tab 22 at 346.
25
   Tab 22 at 346.
26
   Tab 22, at 514-520.
27
   Tab 22 at 515.
28
   Tab 22 at 517.
29
   Tab 23, The        ·    Decision Letter.
31
     Tab 23 at 521-522.
32
     Tab 23 at 522.


                                                                                                      4
SENSITIVE                                                                                  SENSITIVE


                                    OIG's Investigation and Assessment

        We notified the Subject of our receipt of the University report and invited his comments
                                  33
as we resumed our investigation. We reviewed the University investigation report and
concluded that the University investigation was accurate, complete, and in accordance with
reasonable procedures, except that it inaccurately described the location of the Subject's doctoral
training. 34 We agree with the·University that the evidence does not support a fmding of research
misconduct with regard to the Proposal, and we agree that the Subject's actions in the Award
meet the definition of plagiarism. However, we differ from the University in our assessment of
the Subject's intent with respect to the Award and thus conclude that the evidence supports a
finding of research misconduct.

       A fmding of research misconduct requires that: (1) there be a significant departure from
accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a
preponderance of the evidence.35

                                                 The Act

        We concur with the IC that "numerous items of plagiarism occurred in [the Award]." 36
The copied material identified in the Award is summarized below with respect to the number of
lines of text, embedded citations, and the Subject's provision of quotation marks, citations, and
references to the original source. When assessing whether attribution is appropriate for quoted
material, we generally assess whether three elements are present: 1) quotation marks or other
means (e.g., block indentation) of distinguishing the copied material from originalmaterial; 2)
the citation, which is the indicator in the narrative directing the reader to the bibliographic entry
for the source; and 3) the reference, which is the bibliographic entry that reasonably leads the
reader to the source of the quoted or paraphrased material.




33
   Tab 25, Notification Letter to Subject.
34
   45 C.F.R. 689.9(a).
35
   45 C.F .R. 689 .2(c).
36
   Tab 22 at 345.


                                                                                                        5
SENSITIVE                                                                                            SENSITIVE


                              Summary of Copying Found in the Award

                 Source  Lines of Embedded                  Q              c          R
                                           37           (Quotation     (Citation   (Source
                Document   Text   Citations
                                                          Marks)      to Source) Referenced)
                     A            5           3            N              N           N
                     B           3                          N             y           y
                     c            4                         N             y              y
                     D           2                          N             y              y
                     E           2                          N             y              y
                    ys           24           3             N             y              y
                     G            6                         N             y              y
                     H           2                          N              y             y
                     I            4           2             N             N              N
                     J            5           3             N             N              N
                     K            2            1            N             N              N
                     L            9                         N             y              y

                TOTALS           68           12



        NSF's definition of plagiarism includes the unattributed copying of "another person's
ideas, process, results or words" 39 (emphasis added). We note that the Subject consistently
failed to use quotations marks or other indicators (e.g., block indentation) to distinguish his
original work from the work of others. In some instances, the Subject did provide the citation
and reference to the original source of the copied text. However, the Subject's practice does not
appropriately provide attribution to the source document because it does-not denote for the reader
that the words are not the Subject's original expression. For example, the multiple sentences the
Subject copied from another's work (e.g, 24lines from Source F) interspersed sporadically with
citations to that source (i.e., reference 28 in the Award) does not adequately distinguish his
original text from the copied text.

        While he did not provide any citation to the source document (i.e., Sources A, I, J, and
K), the Subject included embedded citations contained in those sources. The Subject asserted
this was not plagiarism because he cited the "original source" of the intellectual content.40 The
Subject's efforts may provide de minimis attribution for the ideas but fail to attribute the source
author's unique expression of that content through those words. Although Sources A and I have

37
   Embedded elements can include citations, references, figures, schemes, and other non-textual elements of the
copied material that are integrated into the copied material.
38
   We note that authors of Source F were CoPis with the Subject on an earlier proposal • • • • • • • •
However, comparison of the two proposals shows no overlapping text and therefore this does not appear to be a case
of previously shared text
39
   45 C.F.R 689.l(a)(3).
40
   Tab 20 at 334-335.


                                                                                                                6
SENSITIVE                                                                                 SENSITIVE


publication dates after the submission date of the Award proposal, the facts indicate that the
Subject had access to and copied from prepublication drafts. These facts include: the embedded
citations, the length of phrase, the colleague relationship between the Subject and some authors
on the sources, and the contemporaneous periods for the preparation of the Award proposal and
the submission of the manuscripts.

        The verbatim use of another's text without quotation marks is generally a significant
departure from accepted practices. We note that another author in a relevant research
community utilized quotation marks for the same passage the Subject copied in an alternative
source to Source D. 41 Furthermore, two prominent scientific publishers in whose journals the
Subject has published each provide explicit guidance in their style manuals for appropriately
demarcating text as quoted material (i.e., either by quotation marks for shorter quotes or block
                                  42
indentation for longer passages).

        The Subject told the IC that he made a distinction between proposals and manuscripts for
publication. He stated that in preparing manuscripts for publication: "I'm always very, very
careful to ensure that all the wording is ... ours." 43 He added that in a manuscript for publication
he would not have done as he did in the Award. 44

        Thus, the Subject indicated that he was capable and knowledgeable about the
requirements of a manuscript for publication, but that he did not acquaint himself with the
requirements of an NSF proposaL Consequently, the Subject's failure to distinguish the copied
material from his original work in the Award is a significant departure from the accepted
practices of the relevant research communities in which he publishes and the NSF community of
Pis.



       We disagree with the University's determination that the Subject acted carelessly. We
conclude that the totality of the evidence supports a finding that the Subject acted recklessly.

        The act of copying and pasting material from multiple sources into a single proposal is an
inherently knowing, physical act. That some of the material derived from manuscripts prior to
their publication dates necessitated his receipt of the sources from their authors who are his
departmental colleagues. The receipt and use of such inside information is more likely than not a
knowing action. However, the Subject in 8 out of 12 instances included a citation and reference
for the plagiarized materials, failing only to mark the material as quoted from either a publication
or private communication. The incomplete nature of the Subject's attribution is consistent with
reckless action.

       The Subject's unfamiliarity with NSF expectations and belief in relaxed standards for
proposals relative to publications do not significantly mitigate his level of intent. Throughout the

41
   Tab 26 at 580.
42
   Tab 27 at 596-597, 599-600, 630, and 636.
43
   Tab 22 at 421.
44
   Tab 22 at 421


                                                                                                        7
SENSITIVE                                                                                            SENSITIVE


proposal submission process in FastLane, Pis are provided a link to the NSF Grant Proposal
Guide (GPG) on the majority of screens. The Award was the Subject's frrst submission to NSF
                                                                               45
as a PI. His only previous submission was as a CoPI on a declined proposal. A reasonable
new PI in similar circumstances would be at least reckless in not reading the GPG for specific
guidance, particularly when, as in this case, the program solicitation specifically directed the PI
to do so. 46 The GPG states NSF's expectation for:

                              strict adherence to the rules of proper scholarship and attribution.
                              The responsibility for proper scholarship and attribution rests with
                              the authors of a proposal; all parts of the proposal should be
                              prepared with equal care for this concern. Authors other than the
                              PI (or any co-PI) should be named and acknowledged. Serious
                              failure to adhere to such standards can result in fmdings of
                              research misconduct. NSF policies and rules on research
                              misconduct are discussed in the AAG Chapter VII.C as well as in
                              45 CFR Part 689. [471

Also, the Subject noted he received his doctoral training in the United States and not Europe as
the IC stated. 48 His curriculum vita indicates his postdoctoral training at another institution in
the United States.49 His publication record shows that he has published in both European and
                                                                                           5°
American journals, several of which utilize the style manuals noted above. The Subject stated
that he used one standard for manuscripts and another for proposals and that he did not acquaint
himself with the requirements ofNSF proposals, including the expectation for proper scholarship
and attribution. He also told the IC that he was unaware of NSF's definition of plagiarism prior
to our inquiry. 51 Thus, we conclude the Subject acted recklessly in disregarding NSF's
expectations for the scholarly preparation of proposals, including the appropriate attribution of
copied materials

                                                           Standard o(Proo(

        The preponderance of the evidence demonstrates that the Subject recklessly plagiarized
68lines with 12 embedded citations from 12 sources into the Award, and this plagiarism is a
significant departure from the accepted practices of the relevant research communities.

                                              OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             ( 1) How serious the misconduct was; (2) The degree to which the


45-
46
47
4&
             misconduct was knowing, intentional, or reckless; (3) Whether it


     Tab 29 at 702 and 705.
     GPG Section I.D.3.
     '-'P'-'''-'-'LL'-'Uli,                        Tab 22 at 519.
49
50
51
     Tab 22 at 421-422.


                                                                                                             8
SENSITNE                                                                                    SENSITNE


                   was an isolated event or part of a pattern; (4) Whether it had a
                   significant impact on the research record, research subjects, other
                   researchers, institutions or the public welfare; and (5) Other
                   relevant circumstances. 52

                                               Seriousness

        The Subject's copying in the Award without appropriate attribution meets the definition
of plagiarism. It is inherently a serious act further aggravated by the fact the proposal containing
the plagiarism was awarded. The Award is part of NSF's prestigious CAREER program for
early faculty career development, which also adds to the seriousness of the plagiarism. The
Award involves funding under ARRA; although it is by chance and not by the Subject's direct
action that NSF chose to use ARRA funds for the Award.

        The embedded citations and citations to some of the source documents tend to mitigate
false impressions regarding the originality of the ideas that the Subject presented to the reader.
However, his failure to employ generally accepted methods of demarcating quoted material
increased the likelihood of a false impression to the reader regarding his ability to disseminate
results according to the accepted practices of the research community.

                                  Degree to which the Act was Reckless                                     !




        As described above, the Subject acted recklessly. His asserted belief to the IC that
proposals have a relaxed standard relative to publications is indicative of his reckless .failure to
follow the guidance in the GPG as directed in the program solicitation.

                                           Pattern o{Behavior

           There is no evidence to support a pattern of plagiarism by the Subject.

                                     Impact on the Research Record

           There is no evidence to support any impact on the research record.

                                              Other Factors

       The Proposal, which we identified along with the Award, contained text that the IC
determined was originally written by the Postdoc. However, the Postdoc does not appear in the
Proposal as a named author as the GPG instructs. The Subject submitted the Proposal containing
materials that he and the IC identified as the Postdoc's separable contribution. Thus, the Subject
submitted the Proposal containing the work of another person without acknowledging
authorship.




52
     45 C.F.R 689.3(b).


                                                                                                       9
SENSITIVE                                                                                 SENSITIVE




                                                Recommendations53

         Based on the evidence, OIG recommends that NSF:
         • Send the Subject a letter of reprimand notifying him that NSF has made a finding of
            research misconduct. 54
         • Require the Subject to certify to the Assistant Inspector General for Investigations
            (AlGI) his completion of a responsible conduct of research training program and
            provide documentation of the program's content within 1 year of NSF's fmding. 55
            The instruction should be in an interactive format (e.g., an instructor-led course) and
            specifically include plagiarism and appropriate attribution of sources.

         Furthermore, for a period of 1 year immediately following NSF's finding:
         • Bar the Subject from participating as a peer reviewer, advisor, or consultant for
            NSF. 56                         .            .

         •    Require for each document (proposal, report, etc.) to which the Subject contributes
              for submission to NSF (directly or through his institution),
                  o the Subject to submit a contemporaneous certification to the AlGI that the
                     document does not contain plagiarism, falsification, or fabrication. 57

                    The Subject's Response to OIG's Draft Investigation Report

        The Subject responded with comments to our draft reEort. 58 He also shared our draft
report with the University DO who also provided comments. 9 Both expressed concern that we
were "overturning" the University's investigation and fmal adjudication. As a general matter,
NSF's regulation allows us to accept an institution's investigation in whole or in part and
forward it to NSF with our recommendations for NSF action, although we are not required to do
so. 60 Our assessment and recommendations are independent of the institution's and reflect our
analysis of the evidence in the NSF context. In response to the Subject's and the DO's
comments, we have restated our assessment of the University investigation to improve clarity
with regard to our different conclusion with respect to the Subject's intent.

       Both the Subject and the DO objected to our determination that his intent was reckless,
which is contrary to the IC's determination of carelessness. However, for the reasons described
above we conclude that the evidence demonstrates the Subject's significant departure from what
a reasonable person would do through his conscious disregard of or indifference to NSF's
expectations and the resulting effect. For example, the resulting effect of his actions on others
includes the potential of preventing a non-plagiarizing PI from receiving a share of limited NSF
CAREER funds. As the Subject admits in his comments, his physical actions of"copying and
53
    45 C.F.R 689.6(±) and 689.9(c)(2)(ii).
54
    A Group I action45 C.F.R 689.3(a)(l)(i).
55
    This action is similar to Group I actions 45 C.F.R. 689.3(a)(l).
56
    A Group ill action 45 C.F.R. 689.3(a)(3)(ii).
57
    Thls action is similar to 45 C.F.R. 689.3(a)(l)(iii).
58
    Tab 30.
59
    Tab 31.
60
   ) 45 C.F.R 689.9 (a)




                                                                                                    10
SENSITIVE                                                                                SENSITIVE


pasting" were inherently knowing. Our determination of reckless intent reflects our balancing of
the mitigating factors.

         Included in this balancing was our assessment of his actions with respect to the Proposal,
a fact that the Subject asserts is improper for us to consider when neither we nor the IC
recommended a finding of misconduct for the ProposaL In his comments, the Subject admits he
submitted the Proposal written in large part by a researcher who was to be his postdoctoral
associate had NSF funded the Proposal. Although the Subject names the Postdoc in several
places as the individual who will be conducting some of the research and overseeing the graduate
student, there is insufficient indication in the Proposal to support the conclusion that the Postdoc
contributed to its writing. The Subject's submission of a proposal under his name in which a
potential postdoc has written "large portions" of the text supports our assessment of a reckless
disregard for providing appropriate credit in the Award.




                                                                                                  11
                                NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




                                                                          JAN 13 Z014
   OFFICE OF THE
  DEPUTY DIRECTOR



CERTIFIED MAIL --RETURN RECEIPT REQUESTED




                                                                                                        '
                                                                                                    .   '
       Re:    Report of Investigation. Case Number Allll 0077

Dear-:

       You were identified as the Principal Investigator on a proposal submitted to the National
Science Foundation ("NSF") Pnt,-r~<•n

                                                          NSF's Office of Inspector General
("OIG") asked NSF to assess whether a fmding of research misconduct should be made against
you based on the fact that this proposal contained material that was not cited appropriately.


Analysis
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.l(a)(3). A fmding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the releVant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The all~gation be proven by a preponderance of evidence.

45 CFR § 689:2(c).

       Your. proposal contained verbatim and paraphrased text, as well as embedded references,
copied from several source documents. By submitting a proposal to NSF that copied the ideas or
words of another without adequate attribution, as described in the OIG Investigative Report, you
misrepresented someone else's work as your own. I believe that such an action is a significant
departure from the accepted practices of the relevant research community.
                                                                                             Page2

        I, however, am persuaded that you did not display the requisite level of intent required for
the issuance of a fmding of research misconduct. Specifically, I agree with the University that, at
worst, your actions were careless. Therefore, I am declining to issue a finding of research
misconduct against you.

      If you have any questions about the foregoing, please c a l l - , Assistant General
Counsel, at (703) 292-8060.



                                                      Sincerely,




                                                      FaeKorsmo
                                                      Senior Advisor


cc:
